                                                                             Report No. DODIG-2014-006




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              OCTOBER 25, 2013




                     Program Management Office
                     Provided Adequate Oversight of
                     Two Contracts Supporting the
                     Defense Enterprise Accounting
                     and Management System




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                              the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




For more information about whistleblower protection, please see the inside back cover.
                                                   INSPECTOR GENERAL
                                                DEPARTMENT OF DEFENSE
                                                4800 MARK CENTER DRIVE
                                             ALEXANDRIA, VIRGINIA 22350-1500


                                                                                                                    October 25, 2013

MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBJECT: Program Management Office Provided Adequate Oversight of Two Contracts
         Supporting the Defense Enterprise Accounting and Management System
         (Report No. DODIG-2014-006)

We are providing this report for your information and use.

Our original objective was to determine whether DoD and U.S. Air Force officials
administered contracts supporting the Defense Enterprise Accounting and Management
System (DEAMS) in an effective and efficient manner.  Specifically, we planned to determine
whether Government oversight of contractor performance was adequate, quality
assurance plans were adequately implemented, contracts were funded in accordance with
applicable regulations, and modifications that increased costs were properly supported.  
During audit planning, we revised our specific objective to determine whether Program
Management Office (PMO) oversight officials1 provided adequate oversight of contractor
performance and implemented quality assurance plans for two contracts.  Therefore,
we reviewed contract documentation from 2004 through 2012 for the system integration
(SI) contract FA8770-06-F-8001 and the independent verification and validation (IV&V)
contract FA8770-09-C-0064.  The contracts had an approximate total value of $109 million.

Based on the changes to the specific objectives and the audit results, we will not address
the overall objective related to DoD and Air Force officials’ administration of contracts
or the remaining specific objectives related to contract funding and contract modification
in a follow-on report.  Overall, PMO officials provided adequate oversight of contractor
performance for the SI and IV&V contracts and implemented methods for documenting
contractor performance on both contracts that met the intent of a quality assurance
(surveillance) plan.  We considered management comments on a discussion draft of this
report in preparing the final and revised the report as appropriate.




	1	
      DEAMS PMO oversight officials include the contracting officer, contracting officer’s representative, and quality assurance program
      coordinator; a multifunctional and integrated product team; and other personnel assigned to oversee DEAMS contracts.




                                                                                                                                       DODIG-2014-006 │ 1
                 System Is Key to Financial Statement Auditability
                 The May 2013 Financial Improvement and Audit Readiness Plan stated that
                 Enterprise Resource Planning Systems2 continue to be an essential part of the
                 Department’s audit readiness efforts. DEAMS is a key component to the overall
                 Financial Improvement and Audit Readiness Plan and strategy to address DoD
                 financial management challenges. DEAMS is a cross-service initiative between
                 the Air Force, the U.S. Transportation Command, and the Defense Finance and
                 Accounting Service. According to the DEAMS website, its mission is to support the
                 warfighter with timely, accurate, and reliable financial information so DoD managers
                 can make efficient and effective decisions.

                 In DoD Office of Inspector General Report No. DODIG-2013-111, “Status of Enterprise
                 Resource Planning Systems’ Cost, Schedule, and Management Actions Taken to
                 Address Prior Recommendations,” August 1, 2013, we reported the life-cycle cost
                 for the DEAMS program was estimated at $2.1 billion as of July 2012. However, this
                 estimate was decreased to $1.9 billion as of June 2013. According to Government
                 Accountability Office Report No. GAO-13-311, “Selected Defense Programs Need
                 to Implement Key Acquisition Practices,” March 28, 2013, the program spent
                 approximately $334 million over 9 years before establishing its first Acquisition
                 Program Baseline and developing a robust estimate for how much DEAMS was
                 expected to ultimately cost. Based on information provided by DEAMS personnel,3 we
                 identified a universe of 26 contracts valued at approximately $266 million, in support
                 of the DEAMS program, including SI, IV&V, assistance and advisory services, and
                 licensing-type service contracts.


                 Program Management Office Implemented the
                 Enterprise Resource Planning System
                 According to the DEAMS Program Charter, the PMO consists of project and functional
                 branches. PMO officials are responsible for delivering a configured system that
                 meets the DEAMS Functional Management Office (FMO) requirements.  The FMO
                 is responsible for interfacing with DEAMS stakeholders and defining the functional




                 	2	
                     Enterprise Resource Planning systems were designed to replace numerous subsidiary systems, reduce the number
                     of interfaces, and standardize and eliminate redundant data entry while providing an environment for end-to-end
                     business processes.
                 	3	
                     Information provided by the Program Management Office and Functional Management Office.




2 │ DODIG-2014-006
requirements for DEAMS.  The DEAMS Quality Assurance and Management function
is an independent PMO function that reports directly to the program manager and
deputy program manager.

In April 2005, DEAMS received Milestone A4 authority to develop and deploy a
technology demonstration to Scott Air Force Base, Illinois, and its various tenant
commands. On February 3, 2006, PMO personnel awarded the SI contract to
Accenture Limited Liability Partnership, now Accenture Federal Services (Accenture),
to reengineer DEAMS financial business processes and develop and implement the
Increment I Technology Demonstration.5  The SI contract was a firm-fixed-price,
performance-based incentive award that included contract line item numbers for
reimbursable travel expenses and other direct costs incurred by the contractor. PMO
awarded the SI contract to help integrate a new financial management system to ensure
proper handling of common Federal accounting, reporting, and electronic business
transactions. One of the deliverables for the SI contract was an end-to-end process
for DEAMS so the Air Force could achieve the goal of a clean audit opinion. The SI
contract expired on April 30, 2012. As of May 10, 2013, approximately $106 million
was obligated, and the total amount obligated was expended.

On September 30, 2009, PMO personnel awarded the IV&V contract to Ryan
Consulting Group, Inc. (Ryan Consulting) to provide the PMO and oversight
authorities with independent evaluation of DEAMS processes and product
improvement services. The IV&V contract was a time and materials (labor hours)
contract that included contract line item numbers for reimbursable travel expenses
incurred by the contractor.  Ryan Consulting was tasked with assisting PMO with
monitoring the SI contract progress by verifying that the SI contract project phases
complied with appropriate entry and exit criteria, evaluating system testing efforts,
and providing accounting and finance functional expertise to ensure the system
satisfied all applicable requirements. The IV&V contract expired on December 22, 2011.
As of January 31, 2012, approximately $2.7 million was obligated, and the total amount
obligated was expended.




	4	
    Milestone A is the point at which a recommendation is made and approval sought regarding starting or continuing an
    acquisition program into the Technology Development Phase.
	5	
    Technology development is a phase within the Defense Acquisition System that follows a Milestone A decision. This phase
    includes refining requirements and processes until the system achieves the required maturity level, and it may require
    multiple development increments.




                                                                                                                              DODIG-2014-006 │ 3
                 Officials Provided Adequate Oversight of Contracts
                 PMO officials provided adequate oversight of contractor performance for the SI and
                 IV&V       contracts.        PMO       contracting          officers      designated          contracting         officer’s
                 representatives (CORs) by issuing designation letters and specifying their authority
                 and period of designation for the SI and IV&V contracts in accordance with
                 Federal Acquisition Regulation (FAR) Subpart 1.6, “Career Development, Contracting
                 Authority, and Responsibilities.”  PMO contracting officers were unable to provide
                 evidence that all CORs were trained in accordance with the Air Force policy effective
                 at the time that the SI and IV&V contracts were awarded.6 However, PMO contracting
                 officers ensured that CORs were properly trained in accordance with Air Force
                 Federal Acquisition Regulation Supplement Mandatory Procedure 5301.602-2(d).7
                 The CORs for the SI and IV&V contracts used PMO officials to assist them in
                 monitoring the performance of Accenture and Ryan Consulting. For example, integrated
                 product teams (IPTs) assisted in monitoring the SI and IV&V contracts and helped
                 refine requirements as needed. The IPTs consisted of functional area experts who
                 monitored contractor performance, reviewed deliverables for compliance, and provided
                 technical advice.

                 PMO officials met regularly with Accenture and Ryan Consulting to discuss the
                 program status and challenges and to refine requirements. PMO officials periodically
                 assessed contractor performance during performance reviews and provided feedback
                 to Accenture and Ryan Consulting in the form of incentive payments8 and annual
                 assessments, respectively. In addition, the PMO program manager held regular
                 meetings with senior Air Force officials to keep DEAMS stakeholders informed of the
                 program status and identify program risks and other program metrics.


                 Contractor Performance Documentation Maintained
                 PMO officials implemented methods for documenting contractor performance for
                 both the SI and IV&V contracts that met the intent of a quality assurance surveillance
                 plan (QASP). A PMO contracting officer approved a performance plan for the SI contract
                 on February 28, 2011. Although PMO contracting officers did not prepare a QASP for


                 	6	
                     Air Force Federal Acquisition Regulation Supplement Mandatory Procedure (MP) 5346.103, August 2005, required
                     that CORs receive Phase I and Phase II training prior to contract award and required the contracting officer and quality
                     assurance program coordinator to maintain documentation of Phase I and Phase II training.
                 	7	
                     The Phase I and Phase II training requirements outlined in MP5346.103 were replaced by MP5301.602-2(d), April 21, 2011,
                     which requires 16 hours of COR specific refresher training, annual ethics training, and any Activity required training.
                 	8	
                     PMO officials outlined the criteria for incentive payments for the SI contract in an award fee plan and performance-based
                     incentive plan. Also, PMO officials determined award fee incentives based on the assessed value of Accenture’s support to
                     the DEAMS program and performance-based incentives on Accenture’s performance of SI contract functions.




4 │ DODIG-2014-006
the SI contract in conjunction with the preparation of the statement of work, the
performance plan identified the contract elements that required surveillance and
the methods used to provide surveillance as required by FAR Subpart 46.4,
“Government Contract Quality Assurance.” Specifically, the performance plan
provided information to contractors on the requirements, level of performance
expectations, and how the PMO would confirm the services were provided.
The performance plan identified a multifunctional team responsible for monitoring
and evaluating Accenture’s performance on an ongoing basis and required
that the COR perform quarterly assessments of Accenture’s performance. The
performance plan also outlined the performance objectives and performance
standards by which Accenture would be evaluated.            Based on the content of the
performance plan, we determined that the performance plan met the intent of
a QASP.

The performance plan for the SI contract established the use of assessment logs
to document the timeliness and quality of deliverables and to control contract cost.
PMO officials engaged in other ad hoc procedures for monitoring contractors and
documenting the results instead of maintaining assessment logs or performing
quarterly assessments.  PMO officials stated that they did not use the assessment
logs or perform the quarterly assessments because their constant interaction with
Accenture through meetings and briefings provided adequate information to assess
contractor performance.

We determined that collectively, the actual ad hoc procedures and methods used by
PMO to document contractor performance met the intent of the performance plan.
The ad hoc procedures and documentation methods included the following:

          •	 Milestone Billing – Air Force-developed tracker that established target
            monthly tasks, milestone dates, and billing amounts incorporated into
            the contract. The acceptance/rejection of tasks was unofficially tracked
            directly on the milestone billing sheets by a PMO official.

          •	 Program Management Review – Air Force-developed briefing that provided
            an overview of the program, contract status, schedule, financial review,
            and IPT status.




                                                                                      DODIG-2014-006 │ 5
                         •	 Integrated Master Schedule – Contractor-developed monthly deliverables
                           that defined tasks, work products, milestones, and resource requirements
                           for program execution.  PMO officials maintained copies of feedback
                           that they provided to Accenture identifying critical, substantial, and
                           administrative issues.

                         •	 Incentive Payment Assessment Documentation – The incentive
                           payment    assessment     documentation   tracked   contract   deliverables,
                           performance requirements, due dates, acceptance or rejection, and level
                           of performance. PMO officials adhered to established assessment
                           periods when determining the amounts earned by Accenture for
                           incentive payments.

                         •	 Monthly Status Report – Air Force-developed report that provided an
                           update on the acquisition and execution activities, number of deficiency
                           reports worked, Integrated Master Schedule changes since the last
                           reporting period, and contract status.

                         •	 DEAMS Program Metrics – Air Force-developed briefing that provided
                           an update on user metrics, development delivery schedule, operational
                           assessment readiness, system performance, funding, deployment plan,
                           and deficiency reports.

                         •	 Contracting Officer Pre-Approval Process – The contracting officer
                           established procedures requiring prior approval before incurring travel
                           and other direct costs.

                 PMO officials provided evidence that they used and unofficially maintained the
                 ad hoc procedures and documentation methods listed above.

                 The following table summarizes the performance objectives outlined in the
                 performance plan and compares the performance plan documentation requirements
                 with the actual ad hoc procedures and documentation methods used to
                 document surveillance.




6 │ DODIG-2014-006
Table. Comparison of Performance Plan Requirements and Actual Ad Hoc Procedures and
Documentation Methods Used for the SI Contract
                                                 Plan Requirements            Actual Method
         Performance Objectives                   for Documenting             of Documenting
       (Work Requiring Surveillance)                Surveillance                Surveillance
 Timeliness: Deliverables delivered by                                    •	 Milestone Billing
 the date specified in the Contract Data      SS-1: CDRL Delivery Log     •	 Program Management
 Requirements List (CDRL).                                                   Review
                                                                          •	 Milestone Billing
 Quality of Service: Deliverables meet        SS-2: Deliverable           •	 Incentive Payment
 the requirements of the content stated       Acceptance Log                 Assessment
 in the CDRL.                                                                Documentation
 Timeliness: Deficiency Reports fielded       SS-3: Deficiency Report     Integrated Master
 within required timelines.                   Timeline Tracking Log       Schedule
                                              SS-4: Requirements          •	 Monthly Status Report
 Quality of Service: Deficiency Reports are   Traceability Matrix         •	 DEAMS Program
 implemented in production error-free.        Implementation                 Metric
                                              Tracking Chart
 Timeliness: Complete the release by the      SS-5: Release
 PMO approved Requirements Operability                                    Milestone Billing
                                              Tracking Table
 Testing Readiness Review schedule.
                                              SS-6 & SS-7: Total
 Cost Control: Meet the approved              Contract Cost Tracking,     Contracting Officer
 Contracting Officers Cost.                   Total Contract Cost Time,   Pre-Approval Process
                                              & Material Tracking Logs
                                              SS-8: Level II Help Desk
 Timeliness: Level II Help Desk Response                                  Milestone Billing
                                              Tracking Log


The actual methods of documenting surveillance did capture contractor performance
results that addressed the performance objectives outlined in the performance plan.
For example, one of the performance objectives included in the performance plan was
to assess timeliness and determine if deliverables were delivered by the date specified
within the Contract Data Requirements List (CDRL). The performance plan established
performance as acceptable when 98 percent of critical deliverables were received on
time. The performance plan also required that these surveillance results be captured
on a CDRL Delivery Log. Although PMO officials did not use the CDRL Delivery Log
to capture the surveillance results, the milestone billing tracking spreadsheets did
capture the timeliness performance objective, acceptance criteria, corresponding CDRL,
and PMO notes documenting surveillance results.

For the IV&V contract, a contracting officer approved the performance plan on
September 22, 2009.         The performance plan identified the contract elements that
required surveillance and the methods used to provide surveillance as required by
FAR Subpart 46.4, “Government Contract Quality Assurance.” Specifically, the
performance plan outlined the performance objectives, performance thresholds,



                                                                                                     DODIG-2014-006 │ 7
                 and surveillance methods. In addition, the performance plan established the
                 IV&V IPT’s responsibilities for monitoring and assessing Ryan Consulting’s
                 performance, which included preparing and maintaining key performance data such
                 as performance logs, performance reports and contract deliverables, and distributing
                 this information quarterly to the IV&V IPT members. Based on the content of the
                 performance plan, we determined that the performance plan met the intent of a QASP.

                 The actual methods of documenting surveillance did capture contractor performance
                 results that addressed the performance objectives. One of the performance objectives
                 included in the performance plan was for Ryan Consulting to provide timely and
                 high-quality project status reports. PMO officials stated that they met weekly with
                 Ryan Consulting, provided verbal feedback on contractor deliverables, and relied on
                 weekly review meeting minutes that Ryan Consulting prepared to summarize
                 discussions and details of performance and accomplishments.  PMO officials also
                 maintained the weekly review meeting minutes, providing evidence that PMO officials
                 and Ryan Consulting discussed current and future tasks, formal and informal
                 deliverables, and milestones.  PMO officials also used the weekly review meeting
                 minutes as support for the Contractor Performance Assessment Report (CPAR).
                 PMO officials stated that they did not identify performance issues with
                 Ryan Consulting, which is also noted in the CPAR.         PMO officials assessed the
                 quality of services provided, the schedule, and other performance categories and
                 documented their assessment in the CPAR.        PMO officials rated Ryan Consulting’s
                 performance as “Exceptional” from September 30, 2009, through January 31, 2011,
                 and from February 1, 2011, through January 31, 2012. Although PMO officials did
                 not prepare and maintain performance logs and reports to capture the surveillance
                 results, the weekly review meeting minutes did capture the timeliness of deliverables
                 and the corresponding CDRL.       The CPARs also provided evidence of surveillance
                 results and feedback delivered to Ryan Consulting.


                 Review of Internal Controls
                 DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
                 May 30, 2013, requires DoD organizations to implement a comprehensive system of
                 internal controls that provides reasonable assurance that programs are operating
                 as intended and to evaluate the effectiveness of the controls. We found that internal
                 controls over the SI and IV&V contracts were generally effective as they related to
                 the audit objective.




8 │ DODIG-2014-006
Scope and Methodology
We conducted this performance audit from February 2012 through October 2013
in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives.  We believe that the evidence obtained provides a
reasonable basis for our conclusions based on our audit objectives.

Our announced objective was to determine whether DoD and Air Force officials
administered contracts supporting the DEAMS in an effective and efficient manner.
Specifically, we planned to determine whether Government oversight of contractor
performance was adequate, quality assurance plans were adequately implemented,
contracts were funded in accordance with applicable regulations, and modifications
that increased costs were properly supported.         During the planning phase, the
FMO provided a list of contracts to the audit team in April 2012. The PMO office
also provided a list of contracts to the audit team in May 2012. Both lists included
contracts awarded on behalf of the FMO and PMO offices. We compared the two lists
and identified duplicate contract numbers on both lists. We reconciled the two lists
by removing the duplicate contracts, which resulted in a universe of 26 contracts,
valued at approximately $266 million. Subsequently, we revised our specific objectives
to focus primarily on determining whether PMO provided adequate oversight of
contractor performance and implemented quality assurance plans. As a result, we did
not address the overall objective related to DoD and Air Force officials’ administration
of contracts or the remaining specific objectives related to contract funding and
contract modification.

We reviewed two FMO contracts and two PMO contracts. General Services
Administration (GSA) personnel administered the two FMO contracts reviewed. We
visited the GSA Office of Assisted Acquisition Services within the Federal Acquisition
Service and interviewed personnel to gain an understanding of their roles in
the administration of the two FMO contracts.  We determined that GSA was not
involved with onsite contractor performance monitoring for the two FMO contracts,
but relied on contractor performance monitoring information provided by FMO.
Based on the results of the work performed during the planning phase, we removed
the FMO contracts from the scope of the audit. At the time of our site visits, the
Electronic Services Group/Contracting Branch (ELSG/PK) (formerly known as




                                                                                       DODIG-2014-006 │ 9
                 Developing and Fielding Systems Group/Contract Division) was the contracting
                 office providing contract administration for the two PMO contracts.    According to
                 Defense Contract Management Agency (DCMA) personnel, DCMA shared contract
                 administration responsibilities with ELSG/PK for the SI contract.   We interviewed
                 DCMA personnel to gain an understanding of their roles and responsibilities for
                 contract   administration.   DCMA   personnel    stated   they   provided   contract
                 administration, but relied on contractor performance information provided by the
                 primary contracting officer at PMO. Based on the revised scope and objectives of the
                 audit, we did not perform additional work related to DCMA administrative roles.

                 We visited the PMO at Wright-Patterson Air Force Base to determine if the SI and
                 IV&V contracts were administered in an effective and efficient manner. During site
                 visits, we interviewed the SI primary contracting officer, SI and IV&V CORs, and
                 other PMO officials to gain an understanding of the COR delegation and training
                 requirements, contract oversight of SI and IV&V contractors, and their methodology
                 of assessing and documenting contractor performance.

                 We reviewed contract documentation from 2004 through 2012, including the
                 SI contract FA8770-06-F-8001 and the IV&V contract FA8770-09-C-0064. These
                 contracts had an approximate total value of $109 million.  We also reviewed
                 COR designation letters, nomination letters, training certificates, and other
                 documentation to support contractor oversight for the SI and IV&V contracts. We
                 determined whether contract oversight was effective, whether QASPs were prepared,
                 and whether contractor performance documentation was prepared and maintained.

                 We reviewed Federal, DoD, and Air Force contracting guidance.  Specifically, we
                 reviewed FAR subpart 1.6, FAR subpart 46.4, and Defense Federal Acquisition
                 Regulation Supplement Subpart 246.4, “Government Contract Quality Assurance.”
                 We also reviewed the Office of the Under Secretary of Defense for Acquisition,
                 Technology, and Logistics Memorandum, “DoD Standard for Certification of COR for
                 Service Acquisitions,” March 29, 2010, and Air Force Federal Acquisition Regulation
                 Supplement Mandatory Procedures.




10 │ DODIG-2014-006
Use of Computer-Processed Data
We did not rely on computer-processed data in developing our findings and conclusions.


Prior Coverage
No prior audit coverage has been conducted on PMO oversight of DEAMS contracts
during the last 5 years.

You can obtain information about the Department of Defense Office of Inspector
General from DoD Directive 5106.01, “Inspector General of the Department of Defense
(IG DoD),” April 20, 2012; DoD Instruction 7600.02, “Audit Policies,” April 27, 2007;
and DoD Instruction 7050.03, “Office of the Inspector General of the Department
of Defense Access to Records and Information,” March 22, 2013. Our website is
www.dodig.mil.

We appreciate the courtesies extended to the staff.  If you have any questions,
please contact me at (703) 601-5945 (DSN 329-5945).




	                                            Lorin T. Venable, CPA
	                                            Assistant Inspector General
	                                            Financial Management and Reporting




                                                                                     DODIG-2014-006 │ 11
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                           1.800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
